               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00915-206


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                  at 

  Robert J. Dole VA Medical Center 

          Wichita, Kansas 





July 8, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                              CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCMM       Primary Care Management Module
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                     CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              23

  F. Report Distribution .............................................................................................            24

  G. Endnotes ...........................................................................................................         25





VA OIG Office of Healthcare Inspections
                              CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of May 5, 2014, at the following
CBOC which is under the oversight of the Robert J. Dole VA Medical Center and VA
Heartland Network 15:

    Parsons CBOC, Parsons, KS

Review Results: We conducted four focused reviews and made recommendations
in all of the review areas:

Environment of Care. Ensure that:

	    Processes are improved to ensure hazardous materials are inventoried and tracked
      at the Parsons CBOC.

	    A panic alarm system is installed at the Parsons CBOC.

	    Fire drills are performed every 12 months at the Parsons CBOC.

	    Personally identifiable information is protected by securing laboratory specimens
      during transport from the Parsons CBOC to the parent facility or contracted
      processing facility.

	    The door to the examination room designated for women veterans is equipped with
      an electronic or manual lock at the Parsons CBOC.

	    Women veterans can access gender-specific restrooms without entering public
      areas at the Parsons CBOC.

	    All identified environment of care deficiencies at the Parsons CBOC are reported to
      and tracked by the parent facility’s Environment of Care Committee until resolution.

	    The parent facility includes staff at the Parsons CBOC in required education,
      training, planning, and participation in annual disaster exercises.

	    The parent facility documents Emergency Management Preparedness-specific
      training completed for the Parsons CBOC clinical providers.

	    The parent facility’s Emergency Management Committee evaluates the Parsons
      CBOC’s emergency preparedness activities, participation in annual disaster
      exercises, and staff training/education relating to emergency preparedness
      requirements.




VA OIG Office of Healthcare Inspections                                                          i
                             CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Staff consistently complete diagnostic assessments for patients with a positive
     alcohol screen.

	   Registered Nurse Care Managers receive motivational interviewing and health
     coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Staff document that medication reconciliation was completed at each episode of
     care where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Staff consistently provide written medication information that includes the
     fluoroquinolone.

	   Staff provide medication counseling/education as required.

	   Staff document the evaluation of patient’s level of understanding for the medication
     education.

Designated Women’s Health Providers’ Proficiency. Ensure that:

	   All Designated Women’s Health Providers are designated with the women’s health
     indicator in the Primary Care Management Module.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16–22, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                         ii
                                 CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                             1
                                 CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                      CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted a physical inspection of the Parsons CBOC.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement.

Table 2. EOC

NM               Areas Reviewed (continued)                                  Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
 X     The CBOC maintains a written, current             There was no evidence of CBOC’s inventory of
       inventory of hazardous materials and waste        hazardous materials and chemicals were not
       that it uses, stores, or generates.               tracked at the Parsons CBOC with the Center
                                                         for Engineering, Occupational Safety and
                                                         Health-developed chemical inventory tracking
                                                         system or in a database that can be downloaded
                                                         to a Department-wide chemical inventory
                                                         tracking system.
 X     An alarm system and/or panic buttons are          The Parsons CBOC provides MH services, but
       installed and tested in high-risk areas (e.g.,    did not have an alarm system or panic buttons.
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
 X     The CBOC conducts fire drills at least every      There was no evidence of fire drills occurring at
       12 months.                                        least every 12 months at the Parsons CBOC.
       Means of egress from the building are
       unobstructed.

       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.



VA OIG Office of Healthcare Inspections                                                                      3
                                      CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


NM              Areas Reviewed (continued)                                   Findings
        The CBOC has signs identifying the locations
                     of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.
 X     Personally identifiable information is protected   At the Parsons CBOC, personally identifiable
       on laboratory specimens during transport so        information was not protected on laboratory
       that patient privacy is maintained.                specimens during transport.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not lying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
 X     Adequate privacy is provided to women              The examination room designated for women
       veterans in the examination room.                  veterans at the Parsons CBOC was not
                                                          equipped with either an electronic or manual
                                                          door lock.
                                                          Gowned women veterans at the Parsons CBOC
                                                          cannot access gender-specific restrooms
                                                          without entering public areas.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff uses privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
 X     EOC rounds are conducted semi-annually (at         EOC deficiencies at the Parsons CBOC were
       least twice in a 12-month period) and              not reported to and tracked by the parent
       deficiencies are reported to and tracked by the    facility’s EOC Committee until resolution.
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.




VA OIG Office of Healthcare Inspections                                                                  4
                                        CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


 NM                Areas Reviewed (continued)                                     Findings
  X       The parent facility includes the CBOC in           The parent facility did not include the Parsons
          required education, training, planning, and        CBOC in required education, training, planning,
          participation leading up to the annual disaster    and participation leading up to the annual
          exercise.                                          disaster exercises.
                                                             The parent facility did not document Emergency
                                                             Management Plan-specific training for Parsons
                                                             CBOC clinical providers.
     X    The parent facility’s Emergency Management         The parent facility’s Emergency Management
          Committee evaluates CBOC emergency                 Committee did not evaluate the Parsons
          preparedness activities, participation in annual   CBOC’s emergency preparedness activities,
          disaster exercise, and staff training/education    participation in annual disaster exercise, and
          relating to emergency preparedness                 staff training/education relating to emergency
          requirements.                                      preparedness requirements.

Recommendations

1. We recommended that processes are improved to ensure hazardous materials are
inventoried and tracked at the Parsons CBOC.

2.       We recommended that a panic alarm system is installed at the Parsons CBOC.

3.       We recommended that fire drills are performed every 12 months at the Parsons CBOC.

4. We recommended that managers ensure that personally identifiable information is protected
by securing laboratory specimens during transport from the Parsons CBOC to the parent facility
or contracted processing facility.

5. We recommended that the door to the examination room designated for women veterans is
equipped with an electronic or manual lock at the Parsons CBOC.

6. We recommended processes are strengthened to ensure women veterans can access
gender-specific restrooms without entering public areas at the Parsons CBOC.

7. We recommended that all identified environment of care deficiencies at the Parsons CBOC
are reported to and tracked by the parent facility’s Environment of Care Committee until
resolution.

8. We recommended that the parent facility include staff at the Parsons CBOC in required
education, training, planning, and participation in annual disaster exercises.

9. We recommended that the parent facility documents Emergency Management
Preparedness-specific training completed for the Parsons CBOC clinical providers.

10. We recommended that the parent facility’s Emergency Management Committee evaluate
the Parsons CBOC’s emergency preparedness activities, participation in annual disaster
exercises, and staff training/education relating to emergency preparedness requirements.




VA OIG Office of Healthcare Inspections                                                                    5
                                      CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 37 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 14 (38 percent) of 37 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that four of eight RN Care Managers
       received MI training within 12 months of           did not receive MI training within 12 months of
       appointment to PACT.                               appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that two of eight RN Care Managers
       received VHA National Center for Health            did not receive health coaching training within
       Promotion and Disease Prevention-approved          12 months of appointment to PACT.
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

11. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                     6
                                      CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


12. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing and health coaching training within 12 months of appointment
to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                                  7
                                      CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 36 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 11 (31 percent) of 36 patient
                                                         EHRs.
 X     Written information on the patient’s prescribed   We did not find documentation that 10
       medications was provided at the end of the        (28 percent) of 36 patients received written
       outpatient encounter.                             information that included the fluoroquinolone.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling that included the fluoroquinolone in
       patients’ EHRs.                                   7 (19 percent) of 36 patients’ EHRs.
 X     Clinicians documented the evaluation of each      Clinicians did not document the level of
       patient’s level of understanding for the          understanding for 5 (14 percent) of 36 patients.
       education provided.
       The facility complied with local policy.

Recommendations

13. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

14. We recommended that staff consistently provide written medication information that
includes the fluoroquinolone.

15. We recommended that staff provide medication counseling/education as required.

16. We recommended that staff document the evaluation of patient’s level of understanding for
the medication education.




VA OIG Office of Healthcare Inspections                                                                     8
                                      CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, PCMM data, and supporting
documentation for DWHPs’ proficiencies. The table below shows the areas reviewed for this
topic. The area marked as NM did not meet applicable requirements and needed improvement.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated                Nine of 11 DWHPs were not designated with the
 X
       with the WH indicator in the PCMM.                WH indicator in the PCMM.

Recommendations

17. We recommended that the chief of staff consistently ensures that all Designated Women’s
Health Providers are designated with the women’s health indicator in the Primary Care
Management Module.




VA OIG Office of Healthcare Inspections                                                                  9
                                                                               CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS
                                                                                                                                        Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                        Uniques4                                     Encounters4

                                Station                    CBOC
      Location       State                  Locality5                    MH7        PC8        Other9       All        MH7         PC8       Other9       All
                                   #                        Size6
    Hays           KS          589G4        Rural        Mid-Size          319      2,524      1,133       2,755      1,846       3,635       5,846    11,327
    Salina         KS          589GW        Rural        Mid-Size          337      2,464      1,649       2,709      2,282       4,550       9,947    16,779
    Hutchinson     KS          589G7        Rural        Mid-Size          216      1,857      1,488       2,108      1,136       3,682       7,433    12,251
    Parsons        KS          589G5        Rural        Mid-Size          253      1,559        879       1,721      1,740       2,286       4,309     8,335
    Dodge City     KS          589G2        Rural        Small             141      1,235        407       1,309        469       2,094       1,829     4,392
    Liberal        KS          589G3        Rural        Small              36        324         99         376        142         558         251       951




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         10
                                 CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                  Specialty Care                                                 Tele-Health
              CBOC                                              Ancillary Services12
                                     Services11                                                  Services13
    Hays                         Anti-Coagulation               Diabetic Retinal             Tele Primary Care
                                       Clinic                      Screening
                                                              Electrocardiography
                                                                  Social Work
    Salina                       Anti-Coagulation               Diabetic Retinal             Tele Primary Care
                                       Clinic                      Screening
                                                               MOVE! Program14
                                                              Electrocardiography
    Hutchinson                   Anti-Coagulation               Diabetic Retinal             Tele Primary Care
                                       Clinic                      Screening                     Tele Case
                                                                MOVE! Program                  Management
                                                              Electrocardiography
    Parsons                      Anti-Coagulation               Diabetic Retinal             Tele Primary Care
                                       Clinic                      Screening

    Dodge City                   Anti-Coagulation                        ---                 Tele Primary Care
                                       Clinic
    Liberal                             ---                              ---                           ---
 




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           11
                                                                           CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS
                                                                                                                                    Appendix B


                                                         PACT Compass Metrics




                                                                                                                                                            
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                               12
                                                                             CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.

VA OIG Office of Healthcare Inspections                                                                                                                   13
                                                                            CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                  14
                                                                            CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data.


VA OIG Office of Healthcare Inspections                                                                                                                   15
                               CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS
                                                                                        Appendix C
                                VISN Director Comments


               Department of
               Veterans Affairs 	                                   Memorandum


           Date:        June 9, 2014

          From:         Director, VA Heartland Network (10N15)

       Subject: 	       CBOC and PCC Reviews of the Robert J. Dole VA
                        Medical Center, Wichita, KS

             To: 	      Director, Kansas City Office of Healthcare Inspections
                        (54KC)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       Attached, please find the initial status response for the Community Based
       Outpatient Clinic and Primary Care Clinic Review for the Robert J. Dole
       VA Medical Center, Wichita, KS (Conducted the week of May 5, 2014).

       I have reviewed and concur with the Medical Center Director’s response.
       Thank you for this opportunity to focus on continuous performance
       improvement.

       For additional questions, please feel free to contact Mary O’Shea, VISN
       15 Quality Management Officer at 816-701-3000.



       (original signed by:)

       WILLIAM P. PATTERSON, MD, MSS
       Network Director
       VA Heartland Network (VISN 15)




VA OIG Office of Healthcare Inspections                                                          16
                               CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS
                                                                                        Appendix D
                               Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:        May 28, 2014

          From:         Director, Robert J. Dole VA Medical Center (589A7/00)

       Subject: 	       CBOC and PCC Reviews of the Robert J. Dole VA
                        Medical Center, Wichita, KS

             To:        Director, VA Heartland Network (10N15)

       1. I have reviewed and concur with the findings and recommendations in
       the Community Based Outpatient Clinic and Primary Care Clinic Reviews
       at the Robert J Dole VA Medical Center.

       2. Attached are the corrective action plans with target completion dates
       as detailed in the attachment.



       (original signed by:)

       Carol Kaster MA, RN
       Acting Medical Center Director




VA OIG Office of Healthcare Inspections                                                          17
                             CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes are improved to ensure
hazardous materials are inventoried and tracked at the Parsons CBOC.

Concur

Target date for completion: December 30, 2014

Facility response: An inventory sheet with hazardous materials listed has been
developed for the Parsons CBOC. The inventory will be reviewed, tracked and reported
every 6 months to the Environment of Care Committee by the Safety Director.

Recommendation 2. We recommended that a panic alarm system is installed at the
Parsons CBOC.

Concur

Target date for completion: August 1, 2014

Facility response: The request for a panic alarm system for all CBOCs was submitted
to contracting in Leavenworth earlier this year with approval to purchase in May 2014.
Vendor contact has been made but waiting to hear delivery date. The system will be
personal alarms that are worn and when activated by the employee an alert goes to all
computers in the CBOC. Education and training will occur upon arrival. Testing of the
system will occur monthly with a report to the Safety Director then submitted for tracking
through the Environment of Care Committee.

Recommendation 3. We recommended that fire drills are performed every 12 months
at the Parsons CBOC.

Concur

Target date for completion: September 30, 2014

Facility response: Fire drills will be conducted every 12 months with submission of a
report to the Environment of Care Committee.

Recommendation 4. We recommended that managers ensure that personally
identifiable information is protected by securing laboratory specimens during transport
from the Parsons CBOC to the parent facility or contracted processing facility.

Concur


VA OIG Office of Healthcare Inspections                                                        18
                             CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


Target date for completion: September 30, 2014

Facility response: The CBOC Coordinator and Laboratory Supervisor reviewed the
security of the laboratory specimens. Veterans’ paperwork was already being secured
in special keyed envelopes. Laboratory specimen containers were reviewed. It was
decided to order Nylon Stainless Steel Barb Inlay Cable Ties to place on the outer
transport bags. The CBOC and facility’s Laboratory staff was educated via memo about
the new product on June 6, 2014. The special ties were sent to all CBOCs on June 6
and usage to begin on June 9. Checks for placement of the ties on the transport
containers will occur upon arrival in the Laboratory. If the tie has been tampered with, a
Duty to Report form will be completed. Monitoring will occur for 3 months with report to
Quality Performance Council.

Recommendation 5. We recommended that the door to the examination room
designated for women veterans is equipped with an electronic or manual lock at the
Parsons CBOC.

Concur

Target date for completion: August 1, 2014

Facility response: We plan to place a locked door in the Parson’s CBOC for the
women’s examination door.

Recommendation 6. We recommended processes are strengthened to ensure women
veterans can access gender-specific restrooms without entering public areas at the
Parsons CBOC.

Concur

Target date for completion: January 31, 2015

Facility response: In order to provide women veterans access to a restroom directly
from the women’s exam room without the need to go through a public hallway, we are
exploring the options to convert an exam room to a Women’s restroom. Administrative
controls are currently in place for this location to ensure patients’ dignity that follow
handbook requirements—patients are offered use of toilet prior to disrobing for exam. If
a patient is in a gown and indicates the need to use the restroom which is in a public
area, staff have been directed and will accommodate the patient to redress if they
choose prior to exiting the exam room. If the patient voices concern about time to
dress, staff have access to drapes/sheets/additional gowns to cover patient to assure
no exposure.

Recommendation 7. We recommended that all identified environment of care
deficiencies at the Parsons CBOC are reported to and tracked by the parent facility’s
Environment of Care Committee until resolution.

Concur


VA OIG Office of Healthcare Inspections                                                        19
                             CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


Target date for completion: September 30, 2014

Facility response: The Environment of Care Committee minutes have been expanded
to include tracking items to completion. An Environment of Care Rounds Committee has
been established to review monthly the findings on the Environment of Care rounds and
will report to the Environment of Care Committee monthly. Environment of Care rounds
will begin usage and training of tablets during their rounds in June 2014. The tablet has
capabilities to record, print, and send data to area managers for follow-up and can all be
downloaded into the Environment of Care Rounds Committee minutes for resolution
then to the Environment of Care Committee meeting.

Recommendation 8. We recommended that the parent facility include staff at the
Parsons CBOC in required education, training, planning, and participation in annual
disaster exercises.

Concur

Target date for completion: September 30, 2014

Facility response: The Emergency Management Chief will involve CBOC staff in facility
annual disaster exercises with reports to the Emergency Management Committee and
then to the Environment of Care Committee. Televideo is being established to allow
participation in the Emergency Management Committee planning for emergency
exercises. Educational presentations are being developed and participation will be
electronically tracked.

Recommendation 9. We recommended that the parent facility document Emergency
Management Preparedness-specific training completed for the Parsons CBOC clinical
providers.

Concur

Target date for completion: September 30, 2014

Facility response: The Emergency Preparedness Chief will have the CBOCs use a
sign-in sheet with each training or educational opportunity.      All Emergency
Preparedness specific training including Parson will be documented in the monthly
Emergency Management meeting minutes which then are reviewed in the Environment
of Care meeting and placed in that meeting minutes.

Recommendation 10.            We recommended that the parent facility’s Emergency
Management Committee evaluate the Parsons CBOC’s emergency preparedness
activities, participation in annual disaster exercises, and staff training/education relating
to emergency preparedness requirements.

Concur

Target date for completion: September 30, 2014


VA OIG Office of Healthcare Inspections                                                        20
                             CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


Facility response: The Emergency Management committee will document their
evaluation of exercises in the minutes of the committee. Upon conduction of exercises
there will be an evaluation the Emergency Management Committee which then will be
reported to the Environment of Care Committee.

Recommendation 11. We recommended that CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.

Concur

Target date for completion: October 31, 2014

Facility response: The Director of CBOC/ Primary Care reviewed the Clinical Reminder
for Alcohol Audit C and added a follow-up section. An email to educate Primary Care
Providers was sent on June 5, 2014 and further education/clarification will be provided
at the Primary Care monthly staff meeting on July 3. Audits will be conducted as follow-
up until there is 90 percent compliance.

Recommendation 12. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing and health coaching training
within 12 months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: October 31, 2014

Facility response: CBOC/Primary Care Clinic Registered Nurse Care Managers will
receive motivational interviewing and health coaching training within 12 months of
appointment to Patient Aligned Care Teams. A tracking process is in place for the
Nurse Care Managers that is maintained by the Health Promotion/Disease Prevention
Coordinator.

Recommendation 13.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: October 31, 2014

Facility response: The Director of Primary Care, Chief of Quality Management,
Pharmacy Chief, Associate Chief of Pharmacy, CBOC Coordinator and Survey
Coordinator met to review and refine the Medication Reconciliation process template.
Primary Care staff was educated via email on June 5, 2014 on completing Medication
Reconciliation. Further clarification/education will occur at the Primary Care monthly
meeting on July 3. Audits will occur until 90 percent compliance is reached.



VA OIG Office of Healthcare Inspections                                                        21
                             CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS


Recommendation 14. We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: October 31, 2014

Facility response: Primary Care staff was educated via email on June 5, 2014 on
providing written information on fluoroquinolone. Further clarification/education will
occur at the Primary Care monthly meeting on July 3. Audits will occur until 90 percent
compliance is reached.

Recommendation 15.           We           recommended       that   staff   provide    medication
counseling/education as required.

Concur

Target date for completion: October 31, 2014

Facility response: Primary Care staff was educated via email on June 5, 2014 on
providing counseling/education as required. Further clarification/education will occur at
the Primary Care monthly meeting on July 3. Audits will occur until 90 percent
compliance is reached.

Recommendation 16. We recommended that staff document the evaluation of
patient’s level of understanding for the medication education.

Concur

Target date for completion: October 31, 2014

Facility response: Primary Care staff was educated via email on June 5, 2014 on
evaluating the patient’s level of understanding for medication education. Further
clarification/education will occur at the Primary Care monthly meeting on July 3. Audits
will occur until 90 percent compliance is reached.

Recommendation 17. We recommended that the chief of staff consistently ensures
that all Designated Women’s Health Providers are designated with the women’s health
indicator in the Primary Care Management Module.

Concur

Target date for completion: Completed May 30, 2014

Facility response: The facility has completed the designation of all Designated
Women’s Health Providers in the Primary Care Management Module. New providers
involved in Women’s Health care will be designated in the Primary Care Management
Module.



VA OIG Office of Healthcare Inspections                                                        22
                             CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Laura Snow, LCSW, MHCL, Team Leader
Contributors
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Stephanie Hensel, RN, JD
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        James Seitz, RN, MBA
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        23
                             CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS
                                                                                      Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Heartland Network (10N15)
Director, Robert J. Dole VA Medical Center (589A7/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jerry Moran, Pat Roberts
U.S. House of Representatives: Tim Huelskamp, Lynn Jenkins, Mike Pompeo, Kevin
 Yoder


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        24
                                  CBOC and PCC Reviews at Robert J. Dole VA Medical Center, Wichita, KS
                                                                                          Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    25
